U.S. Department of the Interior
Office of Inspector General

                             Audit Report

             Virgin Islands Fire Service
        Government of the Virgin Islands




                         Report No. 2002-I-0001
                                  October 2001
                                                                                    V-IN-VIS-004-01-M

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                          Insular Area Audits
                                     Federal Building, Room 207
                                   St. Thomas, Virgin Islands 00802

                                                                                  October 30, 2001


Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report on the Virgin Islands Fire Service, Government of the Virgin Islands
         (No. 2002-I-0001)

Dear Governor Turnbull:

        This report presents the results of our audit of the administrative operations of the Virgin
Islands Fire Service.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by November 30, 2001. The response should provide
the information requested in Appendix 4 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                              Sincerely,



                                              Arnold E. van Beverhoudt, Jr.
                                              Audit Manager for Insular Areas

cc:   Director, Virgin Islands Fire Service
      Commissioner of Licensing and Consumer Affairs
      Commissioner of Public Works
      Commissioner of Property and Procurement
      Commissioner of Finance
      Virgin Islands Attorney General
EXECUTIVE SUMMARY
                   The Virgin Islands Fire Service was established in 1979, and
BACKGROUND         is administered by a Director, who is appointed by the
                   Governor with the advice and consent of the Legislature. For
                   administrative purposes, the Fire Service is divided into the
                   District of St. Thomas/St. John and the District of St. Croix,
                   with administrative offices in both districts. Each district has
                   a Suppression Unit that is responsible for extinguishing fires
                   and an Arson Prevention and Investigation Unit that is
                   responsible for investigating the causes of fires and conducting
                   fire prevention activities. As of April 2001, there were two
                   active fire stations on St. Thomas, two on St. John, and four on
                   St. Croix. The Fire Service received appropriations of
                   $10.9 million in fiscal year 1999 and $10.4 million in fiscal
                   year 2000.


                   The objective of the audit was to determine whether the Fire
OBJECTIVE          Service effectively carried out its administrative functions of
                   personnel and property management, collection of fire
                   inspection fees, and documentation of fire emergencies and fire
                   prevention activities. We expanded the objective of the audit
                   to include an analysis of lump sum payments made to eight
                   former Fire Service employees.


                   The Fire Service adequately documented fire emergencies to
RESULTS IN BRIEF   which it responded and adequately conducted fire safety
                   education programs, but other controls needed improvement.
                   Specifically, the Fire Service should:

                   ‘      Conduct required biennial fire safety inspections at
                          commercial establishments and collect the appropriate
                          fees for this service as authorized by the Virgin Islands
                          Code.

                   ‘      Deposit collections on a daily basis and ensure that
                          collections are adequately safeguarded.

                   ‘      Analyze and document its staffing needs to reduce the
                          excessive use of overtime.

                   ‘      Ensure that a high-ranking official submits time sheets
                          to support the hours worked.
                  ‘       Fully use the $2 million allotted to renovate the fire
                          stations and upgrade fire fighting equipment.

                  ‘       Prepare and maintain complete property management
                          records for all Fire Service property and equipment
                          and conduct a physical inventory of the property at
                          least once every two years.

                  ‘       Obtain price quotations from at least three sources
                          when purchasing fire fighting equipment and supplies
                          on the open market.

                  ‘       Request that the Virgin Islands Water and Power
                          Authority disconnect electric service at the two closed
                          fire stations on St. Thomas to avoid monthly electric
                          charges at unmanned fire stations.

                  ‘       Implement a formal records retention policy.

                  We concluded that, as a result of the administrative control
                  weaknesses noted, the Fire Service (1) did not generate fire
                  inspection fees of at least $1.1 million during fiscal years 1999
                  and 2000; (2) exceeded its overtime budgets by a total of
                  $798,909 during fiscal years 1999 and 2000; (3) paid a
                  high-ranking official about $94,035 in salary costs without
                  documentation of the hours worked; (4) did not use about
                  $1.2 million that was available to renovate and improve living
                  conditions at the fire stations and purchase upgraded fire
                  fighting equipment; and (5) incurred electricity charges of
                  about $3,060 at unmanned fire stations. In addition, we
                  concluded that lump sum payments to former Fire Service
                  employees totaling $274,285 should be reviewed by the
                  Attorney General for legal sufficiency.


                  We made 11 recommendations to the Governor of the Virgin
RECOMMENDATIONS   Islands to address the internal control weaknesses related to
                  administrative functions of the Fire Service and to lump sum
                  payments made to eight former Fire Service employees.




                             2
                   The Governor and the Fire Service concurred with the
AUDITEE COMMENTS   11 recommendations and indicated that corrective actions had
AND OFFICE OF      been or would be taken on 9 of the recommendations.
INSPECTOR          Corrective actions on two recommendations were not addressed
GENERAL            in the response. Based on the response, we considered six
EVALUATION         recommendations resolved and implemented, three
                   recommendations resolved but not implemented, and requested
                   additional information for two recommendations.




                             3
4
CONTENTS
                   .............................................                                             1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          7
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . .               8
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . .              8

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
RESULTS OF AUDIT   Administrative Functions . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                   Lump Sum Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
RECOMMENDATIONS

                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . .            27
APPENDICES         2.   Prior Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . .           28
                   3.   Responses to Draft Report . . . . . . . . . . . . . . . . . . . . .                29
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . . . .                33




                                   5
6
INTRODUCTION
                                              In 1979, the Virgin Islands Fire Service was established within
BACKGROUND                                    the Office of the Governor by Act No. 4206. The Fire Service
                                              is administered by a Director, who is appointed by the Governor
                                              with the advice and consent of the Legislature. For administrative
                                              purposes, the Fire Service is divided into the District of St.
                                              Thomas/St. John and the District of St. Croix, with administrative
                                              offices in both districts. Each district has a Suppression Unit that
                                              is responsible for extinguishing fires and an Arson Prevention and
                                              Investigation Unit that is responsible for investigating the causes of
                                              fires and conducting fire prevention activities. There are four fire
                                              stations on St. Thomas,1 two on St. John, and four on St. Croix.


                                              The Fire Service had 250 filled positions and 27 vacant positions
                                              during fiscal year 1999, and 254 filled positions and 11 vacant
                                              positions during fiscal year 2000. In March 2001, the
                                              Government hired 15 additional fire fighters.

                                              In October 1998, the Legislature passed Act No. 6269, the
                                              Revenue Enhancement Act of 1998, which was incorporated into
                                              the Virgin Islands Code (23 V.I.C. §605(d), (e), and (f)). With
                                              respect to the Fire Service, the Act authorized the Director of the
                                              Fire Service to impose a fee on commercial establishments for
                                              inspectors from the Arson Prevention and Investigation Unit to
                                              inspect the buildings and premises of the commercial
                                              establishments for conditions liable to cause fires. Collections
                                              totaled $8,285 in fiscal year 1999 and $148,465 in fiscal year
                                              2000.

                                              The Fire Service received appropriations of $10.9 million in fiscal
                                              year 1999 and $10.4 million in fiscal year 2000. Based on
                                              information contained in the Government’s financial management
                                              system, the Fire Service expended $12.6 million in fiscal year
                                              1999 and $10.8 million in fiscal year 2000, thus overspending its
                                              appropriations by $1.7 million in 1999 and $0.4 million in 2000.


__________
1
 The fire station at Estate Fortuna was closed in November 1998 and the fire station at Estate Dorothea was closed in
November 1999, both due to a shortage of fire fighting personnel. As of April 30, 2001, the two fire stations had not been
reopened.


                                                            7
                The objective of the audit was to determine whether the Fire
OBJECTIVE AND   Service effectively carried out its administrative functions of
SCOPE           personnel and property management, collection of fire prevention
                fees, and documentation of fire emergencies and fire prevention
                activities. We expanded the objective of the audit to include an
                analysis of lump sum payments made to eight former Fire Service
                employees. The scope of the audit included a review of
                transactions that occurred and the policies and procedures that
                were in effect during fiscal years 1999 and 2000 and other
                periods as appropriate.

                The audit was conducted from December 2000 through April
                2001 at the Fire Service’s St. Thomas, St. John, and St. Croix
                locations; the Departments of Finance, Labor, and Licensing and
                Consumer Affairs; and the Division of Personnel.

                Our audit was conducted in accordance with the "Government
                Auditing Standards," issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records
                and other auditing procedures that were considered necessary
                under the circumstances. The "Standards" requires that we obtain
                sufficient, competent, and relevant evidence to afford a reasonable
                basis for our findings and conclusions.

                As part of our audit, we evaluated the internal controls at the Fire
                Service to the extent we considered necessary to accomplish the
                audit objective. Internal control weaknesses were identified in the
                areas of conducting inspections at commercial establishments,
                safeguarding collections, controlling overtime charges, maintaining
                property control records, establishing a records retention policy,
                and processing lump sum payments to employees. These
                weaknesses are discussed in the Results of Audit section of this
                report. The recommendations, if implemented, should improve
                the internal controls in these areas.


                The Office of Inspector General has not issued any reports on
PRIOR AUDIT     the Fire Service during the past five years. However, in March
COVERAGE        1994, the Office of Inspector General issued a report on the
                administration of the Fire Service (see Appendix 2).




                            8
RESULTS OF AUDIT
               The Fire Service adequately documented fire emergencies to
OVERVIEW       which it responded and adequately conducted fire safety
               education programs, but other controls needed improvement.
               Specifically, the Fire Service should:

               ‘      Conduct required biennial fire safety inspections at
                      commercial establishments and collect the appropriate
                      fees for this service as authorized by the Virgin Islands
                      Code.

               ‘      Deposit collections on a daily basis and ensure that
                      collections are adequately safeguarded.

               ‘      Analyze and document its staffing needs to reduce the
                      excessive use of overtime.

               ‘      Ensure that a high-ranking official submits time sheets
                      to support the hours worked.

               ‘      Fully use the $2 million allotted to renovate and
                      improve living conditions at the fire stations and
                      upgrade fire fighting equipment.

               ‘      Prepare and maintain complete property management
                      records for all Fire Service property and equipment;
                      ensure that each piece of equipment has a Government
                      property identification tag; and conduct a physical
                      inventory of the property at least once every two years
                      and reconcile the results with the inventory records.

               ‘      Obtain price quotations from at least three sources
                      when purchasing fire fighting equipment and supplies
                      on the open market to ensure that the Government
                      receives the most favorable prices, terms, and
                      conditions.

               ‘      Request that the Virgin Islands Water and Power
                      Authority disconnect electric service at the two closed
                      fire stations on St. Thomas to avoid monthly electric
                      charges at unmanned fire stations.

               ‘      Implement a formal records retention policy.




                         9
                            We concluded that, as a result of the administrative control
                            weaknesses noted, the Fire Service (1) did not generate fire
                            inspection fees of at least $1.1 million during fiscal years 1999
                            and 2000; (2) exceeded its overtime budgets by a total of
                            $798,909 during fiscal years 1999 and 2000; (3) paid a high-
                            ranking official about $94,035 in salary costs without
                            documentation of the hours worked; (4) did not use about
                            $1.2 million that was available to renovate and improve living
                            conditions at the fire stations and to purchase upgraded fire
                            fighting equipment; and (5) incurred electricity charges of
                            about $3,060 at unmanned fire stations. In addition, we
                            concluded that lump sum payments to former Fire Service
                            employees totaling $274,285 should be reviewed by the
                            Attorney General for legal sufficiency.


                            The Fire Service needed to increase the extent to which it
ADMINISTRATIVE              performed fire inspections of commercial establishments and
FUNCTIONS                   improve internal controls over administrative functions related
                            to collections, payroll expenses, facilities and equipment,
                            non-payroll expenses, and records.


Potential Fire Inspection   The Revenue Enhancement Act of 1998, which was codified
Fees of $1.1 Million Were   in Title 23, Section 605 of the Virgin Islands Code established
Not Realized                a fire inspection fee. The Code (23 V.I.C. §605(d)) states that
                            the Director of the Fire Service "shall inspect or cause to be
                            inspected . . . every commercial establishment in the Virgin
                            Islands not less than once each two years." The Code
                            (23 V.I.C. §605(e)) authorizes the Director of the Fire Service
                            to impose a fee of $200 for each inspection performed on
                            commercial establishments with annual gross receipts of over
                            $150,000 and $100 for all other commercial establishments.
                            The Code (23 V.I.C. §605(f)) also states that 50 percent of the
                            monies collected for inspection activities shall be deposited
                            into the Fire Service Emergency Fund. Finally, the Code
                            (33 V.I.C. §3032(b)) states, "Monies shall be disbursed from
                            the [Fire Service Emergency] Fund . . . for the purpose of
                            making payments for extraordinary expenses incurred in
                            fighting fires and other emergencies involving the Virgin
                            Islands Fire Service. Monies in the Fund may also be utilized
                            for the hiring of fire inspectors and for the purchase of fire
                            fighting equipment and supplies."

                            To determine whether the Fire Service was complying with
                            requirements of the Virgin Islands Code, we obtained a list of



                                      10
commercial establishments from the Department of Licensing
and Consumer Affairs. The list included 12,788 commercial
establishments that were issued business licenses in fiscal year
2000. Utilizing a conservative estimate of $100 per
inspection, we determined that the Fire Service could have
collected at least $1,278,800 over a 2-year period.

However, we found that, during fiscal year 2000, the Fire
Service inspected only 1,293 commercial establishments and
collected only $148,465 and, during fiscal year 1999, the Fire
Service inspected only 937 commercial establishments and
collected only $8,285. Therefore, total collections for fiscal
years 1999 and 2000 were $156,750. Based on our
conservative estimate of potential collections totaling
$1,278,800 during fiscal years 1999 and 2000, we concluded
that the Fire Service did not collect at least $1,122,050 that
could have been used to hire fire inspectors and purchase fire
fighting equipment and supplies.

Regarding the fiscal year 1999 collection activity of only
$8,285, we found that although the Revenue Enhancement Act
was passed in October 1998, the Fire Service’s Arson
Investigation and Prevention Unit did not begin charging a fee
for the inspection service until August 1999, or 1 month before
the end of the fiscal year.

In order to improve internal controls in this area and to
increase revenues for the purchase of fire fighting equipment
and supplies, we believe that the Department of Licensing and
Consumer affairs should coordinate its efforts with the Fire
Service by providing the Fire Service with up-to-date lists of
commercial establishments. The Fire Service, in turn, should
develop a methodology to conduct inspections at a
representative share of commercial establishments each year.

We found, however, that the Fire Service requested lists of
commercial establishments from Licensing and Consumer
Affairs in July 1999 and January 2001, but that Licensing and
Consumer Affairs did not provide the information to the Fire
Service. Because the Fire Service did not have a current list
of commercial establishments, we provided the Fire Service
with the list of commercial establishments that we obtained
from Licensing and Consumer Affairs.




          11
Deposits Were Not         The Department of Finance Accounting Manual
Always Made Daily And     (Section 310.4) states, "Except as otherwise authorized by the
Collections Were Not      Commissioner [of Finance], Collectors must deposit daily,
Safeguarded               through the use of the night depository, all collections made by
                          them during the day." However, Fire Service officials told us
                          that they usually made deposits on a weekly basis even though
                          they had not sought the approval of the Commissioner of
                          Finance.

                          We compared the collection date with the deposit date for
                          231 transactions and found that the average elapsed time
                          between date of collection and date of deposit was 9 working
                          days in fiscal year 1999 and 6 working days in fiscal
                          year 2000. For example, we found that $660 collected during
                          the period of August 8 to September 8, 2000, at the Cruz Bay,
                          St. John Fire Station was not deposited until September 8,
                          2000, or as much as 22 working days after the date of
                          collection. Included in this amount was a cash collection of
                          $100 that was collected on August 11, 2000, and held for
                          deposit until September 8, 2000.

                          We also found that undeposited collections were not
                          adequately safeguarded. For example, on St. John undeposited
                          collections were kept in the office of the Deputy Chief of
                          Operations, but fire fighters had spare keys to this office. On
                          St. Croix, the administrative office was burglarized four times
                          in a 12-month period. In addition, we witnessed a non-Fire
                          Service employee bring prior days’ collections to the
                          administrative office because the employee responsible for the
                          collections was on leave.

                          In order to improve internal controls in this area, we believe
                          that the Fire Service should (1) make deposits on a daily basis
                          as required by the Department of Finance Accounting Manual
                          and (2) adequately safeguard funds collected during the day by
                          keeping funds in a secure, limited-access area. We believe
                          that this matter is of particular importance because daily
                          collections should increase significantly due to the fees
                          collected for inspections of commercial establishments.


Overtime Amounts          In order to maintain a safe level of staffing at fire stations, Fire
Exceeded Budgeted         Service officials allowed existing fire fighters to work extra
Amounts by $654,010       shifts at overtime pay rates. During fiscal year 1999, overtime
in 1999 and by $144,899   costs totaled $754,010, or $654,010 (654 percent) more than
in 2000                   the overtime budget of $100,000. Total overtime costs in
                          fiscal year 2000 decreased to $335,399, but were still

                                     12
                           $144,899 (76 percent) more than the overtime budget of
                           $190,500.

                           Our analysis of the overtime hours for the St. Croix District for
                           fiscal year 1999 showed that of the 15,397 overtime hours
                           claimed, 14,175 hours (92 percent) were required because of
                           manpower shortages. For fiscal year 2000, of the 5,015
                           overtime hours claimed, 4,671 hours (93 percent) were
                           required because of manpower shortages.

                           We were unable to conduct a similar comparison for the
                           St. Thomas/St. John District because neither the Fire Service
                           nor the Department of Finance was able to provide us with the
                           overtime authorization forms for the period of March to
                           September 1999 (the last 7 months of fiscal year 1999).
                           Therefore, for fiscal year 1999, although the payroll registers
                           recorded 17,158 overtime hours for Fire Services personnel,
                           there were no overtime authorization forms for 13,746 of those
                           hours. For fiscal year 2000, although the payroll registers
                           recorded 12,115 overtime hours for Fire Services personnel,
                           there were no overtime authorization forms for 4,442 of those
                           hours.

                           In March 2001, the Government hired 15 additional fire
                           fighters.   Fire Services officials told us that these
                           15 employees would help reduce overtime costs but would not
                           be sufficient to reopen the two closed fire stations on
                           St. Thomas.


Payroll Costs of $94,035   During the period of January 1999 to February 2001, a
Were Not Supported         high-ranking Fire Service official did not submit time sheets to
by Time Sheets             support hours worked. We reviewed the payroll registers for
                           the pay periods ending January 30, 1999 to February 10, 2001
                           (54 pay periods) and determined that the official’s earnings
                           during this period totaled $94,035. Because there were no
                           time sheets to validate the hours worked by the official, we
                           classified the $94,035 as unsupported costs. Although the Fire
                           Service always required that time sheets be submitted, the
                           official did not begin submitting time sheets until the second
                           pay period in February 2001 (February 11, 2001). We concur
                           with the policy of requiring time sheets for all Fire Services
                           personnel.




                                     13
$1.2 Million Available                        In October 2000, the Governor authorized the use of $2 million
for Capital Improvements                      ($1.5 million appropriated from the Asset Recovery Fund and
and Equipment Was Not                         $500,000 appropriated from the Fire Maintenance Fund 2) for
Used                                          the purchase of fire fighting equipment and supplies and for the
                                              renovation of fire stations in the Virgin Islands. As of March
                                              20, 2001, $276,791 of the $1.5 million was expended from the
                                              Asset Recovery Fund and $83,910 of the $500,000 was
                                              expended from the Fire Maintenance Fund. In addition, the
                                              Fire Service provided us with a list of expenditures totaling
                                              about $400,000 that had been incurred against the Asset
                                              Recovery and Fire Maintenance Funds but were not yet
                                              processed for payment by the Department of Finance.
                                              Therefore, total expenditures were $760,701, leaving
                                              available balances totaling $1,239,299.

                                              Our analysis of the expenditures incurred against the two funds
                                              showed that the renovation work was primarily being
                                              conducted on St. Croix. We found that renovation work had not
                                              started on St. Thomas primarily because contractor bids were
                                              higher than the amounts allotted for renovation at the fire
                                              stations. Accordingly, in April 2001, the Department of Public
                                              Works revised the scope of work for renovation repairs and
                                              was coordinating with the Department of Property and
                                              Procurement to obtain new contractor bids.

                                              The renovations were required because of deteriorating
                                              conditions at the fire stations, which had been documented by
                                              the Department of Labor’s Division of Occupational Safety
                                              and Health (OSHA) during the period of September 1991 to
                                              December 1999. OSHA cited the fire stations for a myriad of
                                              health and safety concerns including: (1) lack of respiratory
                                              equipment, (2) exposed electrical wiring, (3) infestation by
                                              rodents and poisonous insects, (4) leaking roofs, (5)
                                              non-operational lavatory facilities, and (6) cluttered storage
                                              areas with obsolete items that created a fire hazard.

                                              In January, March, and April 2001, we conducted site
                                              inspections at all of the Fire Services’ fire stations and
                                              administrative offices in the Virgin Islands and found that
                                              many of the conditions cited by OSHA as far back as 1991
__________
2
 Act No. 6351 appropriated $500,000 from the Virgin Islands Board of Public Accounting Special Funds. However,
the Government’s financial management system recorded the expenditures against the Fire Maintenance Fund.
Officials at the Department of Finance told us that the two funds have the same "fund number" but different "cost center
codes" in the financial management system. For purposes of this report, we have referred to the fund as the Fire
Maintenance Fund.



                                                          14
                                              still existed. We believe that the effective use of the
                                              $2 million appropriated to the Fire Service for fire fighting
                                              equipment and supplies and for the renovation of fire stations
                                              would correct the deficiencies cited by OSHA. Accordingly,
                                              we believe that the Department of Public Works should
                                              expedite the revision of the scope of work for the St. Thomas
                                              fire stations and coordinate with the Department of Property
                                              and Procurement to promptly seek bids from responsible
                                              bidders.


Non-Expendable                                Fire Service officials were not familiar with Federal and local
Equipment Was Not                             regulations related to the safeguarding of non-expendable
Properly Accounted For                        equipment. The "Common Rules" issued pursuant to U.S.
                                              Office of Management and Budget Circular A-102 contain
                                              procedures for managing equipment acquired in whole or in
                                              part with Federal grant funds.3 In addition, the Department of
                                              Property and Procurement promulgates regulations to manage
                                              all non-expendable Government property.

                                              The Fire Service provided us with an inventory list for the
                                              St. Thomas/St. John District that was prepared in September
                                              2000 and a vehicle list that was prepared in January 2001.
                                              The inventory list contained only a description and the quantity
                                              of each equipment item, and the vehicle list contained the year,
                                              make, model and condition of each vehicle. The Fire Service
                                              did not provide us with inventory or vehicle lists for the St.
                                              Croix District, but instead provided us with a list of equipment
                                              items that were damaged or destroyed as a result of Hurricane
                                              Marilyn in September 1995.

                                              To determine whether purchased equipment could be
                                              physically located, we selected for review a sample of
                                              20 equipment items valued at $30,717 that were purchased
                                              during fiscal years 1998, 1999, and 2000. We were able to

__________
3
 The Circular A-102 Common Rules state that procedures for managing equipment acquired in whole or in part with
Federal grant funds will, as a minimum, meet the following requirements:
          (1) Property records must be maintained that include a description of the property; a serial number or other
identification number; the source of the property; who holds title; the acquisition date; the cost of the property; the
percentage of Federal participation in the cost of the property; the location, use and condition of the property; and any
ultimate disposition data including the date of disposal and the sale price of the property.
          (2) A physical inventory of the property must be taken and the results reconciled with the property records
at least once every two years.
          (3) A control system must be developed to ensure adequate safeguards to prevent loss, damage, or theft of
the property. Any loss, damage, or theft shall be investigated.
          (4) Adequate maintenance procedures must be developed to keep the property in good condition.



                                                           15
                          locate 13 of the items but were unable to locate 6 items valued
                          at $6,708. One additional item valued at $569 was only traced
                          to the inventory list.

                          Neither the inventory list nor the vehicle list provided by the
                          St. Thomas/St. John District contained sufficient information
                          to adequately identify the value and property numbers of the
                          inventory items. Accordingly, in order to strengthen internal
                          controls in this area, we believe that both the
                          St. Thomas/St. John and St. Croix districts should prepare
                          inventory lists that contain the information required by Circular
                          A-102 Common Rules and the Department of Property and
                          Procurement’s Property Manual. The lists should be
                          periodically updated to reflect the purchase of new equipment
                          and the disposition of old equipment, and a physical inventory
                          should be conducted at least once every 2 years and the results
                          reconciled to the inventory lists.


Price Quotations Were     We found that the Fire Service did not always obtain price
Not Always Obtained For   quotations for goods purchased on the open market. Although
Open Market Purchases     the Virgin Islands Code (31 V.I.C. §239(a)) states that
                          supplies, material, and equipment costing less than $5,000 may
                          be purchased without observing competitive bidding
                          requirements, we believe it is prudent business practice to
                          obtain telephonic quotations from at least three sources when
                          purchasing goods on the open market. We found, particularly
                          for tire purchases made on the open market, that price
                          quotations were not obtained by the Fire Service.

                          Our analysis of tire purchases showed that prices for the same
                          brand and size tire differed by a range of $18 to $105. For
                          example, in August 2000, the Fire Service purchased an
                          1100-20/16 ply highway tire from a St. Croix vendor for $365
                          and, in July 2000, purchased the same tire on St. Thomas for
                          $260, or a difference of $105. Similarly, in February 2000,
                          the Fire Service purchased an 1100-20/16 ply track tire for
                          $520 from a St. Croix vendor and, in August 2000, purchased
                          the same tire from a different St. Croix vendor for $450, or a
                          difference of $70.

                          We also contacted four tire vendors that were used by the Fire
                          Service to request tire price quotations for various size tires.
                          We found, for example, a 385/65 R22-5/18 ply highway tire
                          was sold by a St. Thomas vendor for $648 and by a St. Croix
                          vendor for $485, for a difference of $168. A third vendor did



                                    16
                           not sell this particular tire and the fourth vendor did not
                           respond to our request for a price quotation. Although we did
                           not classify these tire price differences as material exceptions,
                           we do believe that price quotations should be obtained from at
                           least three vendors for purchases made on the open market so
                           that the Government can obtain the best prices, terms, and
                           conditions when expending limited financial resources.


Electricity Charges of     The fire station at Estate Fortuna, St. Thomas was closed in
$3,060 Were Incurred for   November 1998 and the fire station at Estate Dorothea,
Unmanned Fire Stations     St. Thomas was closed in November 1999. However, we
                           noted during our review of operating expenditures that the
                           Fire Service was billed on a monthly basis for electricity
                           charges at these two fire stations even after they were closed.
                           The monthly charges were about $60 at the Fortuna fire station
                           (which as of April 30, 2001 had been closed for 30 months)
                           and $70 at the Dorothea fire station (which as of April 30,
                           2001 had been closed for 18 months). Therefore, as of April
                           30, 2001, we estimated that the Fire Service incurred
                           electricity charges of about $3,060 at the two unmanned fire
                           stations.

                           We discussed this matter with officials at the Water and Power
                           Authority, who informed us that there were consistent monthly
                           meter readings at the two fire stations. Therefore, electricity
                           was being used at the stations. The Water and Power
                           Authority officials suggested the Fire Service should request
                           that the meters at the two fire stations be disconnected to avoid
                           further charges. We concur with the recommendation of the
                           Water and Power Authority officials.


The Fire Service Did Not   During the conduct of our audit, Fire Service personnel
Have a Records Retention   attempted to provide us with all of the information we
Policy                     requested. However, there were instances where specific
                           records could not be located. We believe this condition
                           occurred because the Fire Service did not have a formal
                           records retention policy. Specifically, the Fire Service was
                           unable to provide us with the following documents:

                                   - Daily Summaries of Collections and Deposits and
                           Certificate of Deposits (deposit slips) for deposit numbers
                           0001-99 through 0026-99 for the St. Croix District.

                                  - Receipt books for September 1998 to December
                           1999 for the St. Croix District.

                                     17
                                  - Daily Summaries of Collections and Deposits and
                          Certificate of Deposits (deposit slips) for deposit numbers
                          0001-99 through 0015-99 for St. John.

                                 - Request and Authorization To Pay For Overtime
                          Assignment forms for March through September 1999 for the
                          St. Thomas/St. John District.

                          We believe that if the Fire Service had implemented a records
                          retention policy, these records might have been safeguarded
                          and readily retrievable.


                          Eight former Fire Service employees who held exempt
LUMP SUM                  (unclassified) positions received lump sum settlement
PAYMENTS                  payments totaling $274,285 for the period of March 3, 1991,
                          to each employee’s resignation or retirement date (with the
                          latest date being May 7, 1999). The lump sum payments were
                          based on a February 23, 2000, Public Employees Relations
                          Board (PERB) settlement agreement pursuant to provisions of
                          a series of Executive Orders of the Governor related to
                          executive salary levels. However, based on our review, we
                          question whether the Government representatives at the PERB
                          hearing acted correctly in agreeing to award the lump sum
                          payments to the eight employees. Additionally, significant
                          breaches of internal controls related to the Government’s
                          payroll system occurred during the processing of the lump sum
                          payments.


Executive Salary Levels   In a series of Executive Orders beginning in December 1980,
Were Established by       the Governors of the Virgin Islands have periodically adjusted
Executive Order           the salaries of Government employees holding executive-level
                          positions. For purposes of this report, four of these Executive
                          Orders are of special significance, as follows:

                                  - Executive Order 301-1987 was issued in August
                          1987. It established four executive levels and set the salary
                          ranges for these levels at $55,000 for Executive I, $40,000 to
                          $47,500 for Executive II, $27,500 to $40,000 for Executive III,
                          and $25,000 to $37,500 for Executive IV. The Executive
                          Order stated that for Executive II to IV positions, the
                          appropriate salary levels for specific positions would be
                          determined by the Governor in consultation with the Director
                          of Personnel and the head of the agency in which each
                          executive position was located, and taking into consideration
                          a series of 10 factors. These factors included previous

                                    18
managerial experience, number of persons supervised and their
salaries, the employee’s own previous salary, nature of work,
years of service, and level of training, among others. The
Executive Order also required that each agency head and the
Director of Management and Budget certify, on the Notice of
Personnel Action (NOPA), that the designated salary level for
each executive employee does not exceed the existing level of
appropriations for the agency.

        - Executive Order 325-1990 was issued in September
1990. It amended Executive Order 301-1987 by changing the
top level of the salary ranges for Executive II to IV positions.
The new salary ranges were $40,000 to $54,500 for Executive
II, $27,500 to $51,500 for Executive III, and $25,000 to
$48,000 for Executive IV. The Executive Order further
provided:

        Nothing in this Order shall be construed as
        vesting in any employee of the Exempt Service
        of the Executive Branch of the Government of
        the Virgin Islands, a right to have his or her
        salary adjusted. Salary adjustments shall be
        recommended by a Commissioner or other
        [agency] head after evaluation of any employee
        in the Exempt Service using all the criteria
        enumerated in Section 1 of Executive Order
        No. 301-1987, and . . . certification by the
        Commissioner or other [agency] head and the
        Director of Management and Budget that the
        salary or salaries recommended do not exceed
        the existing level of appropriations for the
        [agency].

        - Executive Order 347-1994 was issued in December
1994. It amended Executive Order 325-1990 by again
changing the top level of the salary ranges for Executive III and
IV (but not Executive II) positions. The new salary ranges
were: $27,500 to $57,680 for Executive III and $25,000 to
$53,760 for Executive IV. The Executive Order again stated,
"Nothing in this Order shall be construed as vesting in any
employee of the Exempt Service of the Executive Branch of the
Government of the Virgin Islands, a right to have his or her
salary adjusted." The Executive Order further stated, "Salary
adjustments shall be recommended by the Head of the
Department/Agency and certified by the Department/Agency
Head and approved by the Governor."



          19
                                     - Lastly, Executive Order 350-1995 was issued in
                            January 1995. It repealed the executive salary levels
                            implemented by Executive Order 347-1994 (and salary
                            increases implemented by Executive Orders 348-1994 and
                            349-1994 for other classes of Government employees).
                            Therefore, Executive Order 350-1995 had the effect of
                            reinstating the executive salary levels established by Executive
                            Order 325-1990.

                            Our review of the official Executive Orders on file at the
                            Office of the Lieutenant Governor did not disclose any
                            further Executive Orders reinstating the executive salary levels
                            established by Executive Order 347-1994. The only related
                            Executive Order on file was Executive Order 383-1999, which
                            was issued in May 1999 and replaced "all language pertaining
                            to Executive Level I" in prior Executive Orders with new
                            language establishing a base salary of $65,000 for "all
                            Commissioners, Department and Agency Heads."


Lump Sum Payments           Based on our reading of the pertinent Executive Orders, it
Totaling $274,285 May Not   appears that Government representatives at the PERB hearing
Have Been Warranted         may have been in error in agreeing to award retroactive salary
                            increases totaling $274,285 to eight former Fire Service
                            employees for the period of March 3, 1991, to each
                            employee’s resignation or retirement date (with the latest date
                            being May 7, 1999). Our conclusion is based on two factors:

                                    - The executive salary levels established by Executive
                            Order 347-1994 in December 1994 were repealed by
                            Executive Order 350-1995 in January 1995, and we found no
                            subsequent Executive Order that reinstated the December 1994
                            executive salary levels. At most, the eight former Fire Service
                            employees would have been entitled to about 1 month’s worth
                            of increased salaries.

                                     - Even if Executive Order 347-1994 had been
                            reinstated by the Governor at some time subsequent to January
                            1995 by some means other than Executive Order, Executive
                            Order 347-1994 clearly intended that executive salary
                            increases would not be "automatic" but would have to be
                            based on the specific recommendation of the department or
                            agency head and be approved by the Governor. Our review of
                            the official personnel files at the Division of Personnel for the
                            eight former Fire Service employees did not reveal the
                            existence of any Notices of Personnel Action that were fully



                                      20
                          executed by the appropriate Fire Service Director and
                          approved by the Governor. The files at the Fire Service
                          contained copies of Notices of Personnel Action that were
                          prepared in July 1995 for two of the eight employees by the
                          then-Fire Service Director (who was himself one of the
                          recipients of lump sum payments). But neither of these Notices
                          of Personnel Action had been certified by the Director of
                          Personnel or approved by the Governor.

                          Because the final resolution of this issue is dependent on a
                          legal reading of the pertinent Executive Orders and a legal
                          interpretation as to the effect of those Executive Orders, we
                          believe that this issue should be officially referred to the
                          Attorney General for legal review. If the Attorney General
                          determines that the lump sum payments were improperly made,
                          consideration should be given to requiring the former Fire
                          Service employees to reimburse the appropriate amounts to the
                          Government.


Payroll System Internal   Our review of the lump sum payments disclosed that in the
Controls Were Bypassed    processing of the payments, there was a significant breach of
                          basic internal controls related to the Government’s payroll
                          system. According to Division of Personnel officials, in order
                          to process a lump sum payment resulting from a salary
                          increase, a fully executed Notice of Personnel Action must be
                          forwarded to the Division along with documents supporting the
                          payment and identifying the source of funding for the payment.
                          The Notice of Personnel Action would then be reviewed and
                          certified by the Director of Personnel and, in the case of
                          unclassified employees (which the eight former Fire Service
                          employees were), approved by the Governor. Once this
                          process was completed, the fully executed Notice of Personnel
                          Action would be forwarded to the Department of Finance for
                          processing of the payment.

                          However, in the case of the lump sum payments for the former
                          Fire Service employees, Notices of Personnel Action were
                          never fully executed for certification by the Director of
                          Personnel or approval of the Governor. Instead the lump sum
                          payments were processed by the Department of Finance’s
                          Payroll Division using Miscellaneous Payroll Record forms,
                          which are normally used to process retroactive, back pay, and
                          supplemental payrolls. In addition, at the time that the lump
                          sum payments were processed, the former employees’ records
                          in the Financial Management System were changed from
                          "inactive" to "active" status by payroll clerks and, in one case,

                                    21
by the Director of Payroll. Normally such employee status
changes should be made only by the Division of Personnel, not
the Department of Finance. Further, lump sum payments in
amounts of more than $5,000 are supposed to be forwarded to
the Commissioner of Finance for review and approval before
being issued. However, in this case, the Commissioner of
Finance did not know that the lump sum payments had been
processed until after the checks had already been distributed,
and was surprised to learn that payroll clerks were able to
change the former employees’ record status from "inactive" to
"active." Therefore, there appears to be a security flaw in the
Financial Management System’s programming that allowed the
payroll clerks to bypass the normal process. We were unable
to determine who directed the payroll clerks to process the
lump sum payments without the knowledge of the
Commissioner of Finance or the Division of Personnel.

Because of the significance of the breakdown in internal
controls in the Financial Management System’s payroll
process, we believe that the Commissioner of Finance should
take immediate action to have the system software modified to
prevent future unauthorized access by payroll clerks. In
addition, the Attorney General’s anti-corruption task force
should be requested to further investigate the manner in which
the lump sum payments were processed to determine if
criminal charges should be brought against any Government
employees for improper manipulation of the payroll system.




          22
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands direct
TO THE GOVERNOR   the Director of the Fire Service to:
OF THE VIRGIN
ISLANDS                   1. Conduct required biennial fire safety inspections at
                  commercial establishments and collect the appropriate fees for
                  this service as authorized by the Virgin Islands Code
                  (23 V.I.C. §605).

                         2. Deposit collections on a daily basis as required by
                  the Department of Finance Accounting Manual and ensure that
                  undeposited collections are adequately safeguarded.

                          3. Conduct an analysis of and document the staffing
                  requirements of the Fire Service to reduce the need for
                  overtime and to adequately staff all fire stations in the Virgin
                  Islands. Appropriate requests for increased staffing should be
                  made through the Office of Management and Budget.

                          4. Prepare and maintain accurate, current, and
                  complete property control records for all Fire Service
                  property and equipment; ensure that each piece of equipment
                  has a Government property identification tag; and conduct a
                  physical inventory of the property at least once every two
                  years and reconcile the results to the property records.

                          5. Obtain and document price quotations from at least
                  three sources when purchasing fire fighting equipment and
                  supplies on the open market to ensure that the Government
                  receives the most favorable prices, terms, and conditions.

                          6. Request that the Virgin Islands Water and Power
                  Authority disconnect electric service at the two closed fire
                  stations on St. Thomas if they will remain unmanned for
                  extended periods of time.

                         7. Implement a formal records retention policy for the
                  Fire Service.

                  We recommend that the Governor of the Virgin Islands direct
                  the Commissioner of Licensing and Consumer Affairs to:

                          8. Provide the Fire Service, on an annual basis, with
                  lists of commercial establishments licensed to conduct
                  business in the Virgin Islands.

                            23
                     We recommend that the Governor of the Virgin Islands direct
                     the Commissioners of Public Works and Property and
                     Procurement to:

                             9. Expedite revisions to the scope of work for
                     renovations at the St. Thomas fire stations and the solicitation
                     of bids from responsible bidders.

                     We recommend that the Governor of the Virgin Islands direct
                     the Commissioner of Finance to:

                             10. Revise the access authority of the payroll clerks so
                     that these employees do not have the ability to change the status
                     of employees and former employees in the payroll system from
                     "inactive" to "active" status. Also implement procedures to
                     ensure that such employee status changes can be made only
                     with appropriate supervisory authorization.

                     We recommend that the Governor of the Virgin Islands direct
                     the Attorney General to:

                           11. Review the legal appropriateness of and
                     methodology used to process lump sum payments to eight
                     former Fire Service employees, determine why the Division of
                     Personnel was bypassed during the payment process, and
                     determine who authorized the payroll clerks at the Department
                     of Finance to alter information in the Government’s financial
                     management system and to use Miscellaneous Payroll Record
                     forms to process the lump sum payments.


                     The September 27, 2001 response (Appendix 3) to the draft
GOVERNOR OF THE      report from the Governor of the Virgin Islands, which
VIRGIN ISLANDS AND   transmitted a response from the Fire Service, expressed
FIRE SERVICE         concurrence with the 11 recommendations and indicated that
RESPONSES            corrective actions had been or were being taken on
                     9 recommendations. Corrective actions for Recommendations
                     10 and 11, were not addressed in the responses.


                     Based on the responses, we consider Recommendations 2, 4,
OFFICE OF            5, 6, 7, and 8 resolved and implemented; Recommendations 1,
INSPECTOR GENERAL    3, and 9 resolved but not implemented; and requested
REPLY                additional information for Recommendations 10 and 11 (see
                     Appendix 4).




                               24
25
APPENDIX 1 - MONETARY IMPACT
                                     Questioned                               Funds
FINDING AREAS                          Costs*          Unrealized           To Be Put
                                   (Unsupported) Revenues*     To Better Use*

   Fire Inspection Fees                                $1,122,050

   Excess Overtime Expenses                                                  $798,909

   Unsupported Payroll Charges       $94,035

   Unused Capital Improvement
      Funds                                                                  1,239,299

   Electricity Charges at Closed
       Fire Stations                                                             3,060

   Lump Sum Payments                 274,285

        Totals                      $368,320           $1,122,050          $2,041,268




__________
* Amounts represent local funds.




                                            26
APPENDIX 2 - PRIOR AUDIT REPORT
                 The March 1994 report "Virgin Islands Fire Service,
OFFICE OF        Government of the Virgin Islands" (No. 94-I-477) stated that
INSPECTOR        (1) because the Fire Service did not have a sufficient number
GENERAL REPORT   of fire fighters, overtime costs of about $800,000 were being
                 incurred annually and fire stations were understaffed; (2)
                 during a 16-month period, 4 fire fighters were paid $141,000
                 in overtime and $49,000 in regular wages under questionable
                 circumstances; (3) the Fire Service did not have a sufficient
                 quantity of self-contained breathing apparatuses or any
                 resuscitators to protect fire fighters; (4) the Fire Service did
                 not ensure that working and living conditions at fire stations
                 were safe and healthy; and (5) the Fire Service did not have
                 effective fire safety inspection and fire education programs.
                 The report also stated, that as a result of these conditions, the
                 ability of the Fire Service to effectively carry out its primary
                 fire fighting responsibilities was compromised, and the safety
                 of fire fighters and residents of the Virgin Islands was at
                 additional risk in the event of fires.




                           27
APPENDIX 4 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference             Status                       Action Required

       1, 3, and 9        Resolved; not   Provide this office with supporting
                          implemented.    documentation upon completion of corrective
                                          actions.

   2, 4, 5, 6, 7, and 8   Implemented.    No further action is required.

       10 and 11          Management      Provide a plan of action to implement the
                          concurs;        recommendations, including the target dates and
                          additional      titles of the officials responsible for
                          information     implementation.
                          requested.




                                          32
Mission Statement
The Office of Inspector General conducts and supervises audits
and investigations of Department of the Interior and insular area
government programs and operations to:

! Promote the economy, efficiency, and effectiveness of
  programs and operations and

! Prevent and detect fraud, waste, and abuse in programs and
  operations.




How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You can
report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free                     800-424-5081

              Washington Metro Area                 202-208-5300
              Hearing Impaired                      202-208-2420
              Fax                                   202-208-6023

              Caribbean Regional Office             340-774-8300
              Pacific Field Office                  671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
